                                   i




U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


    AMERICAN SAMOA LEGISLATURE,
    AMERICAN SAMOA GOVERNMENT

             REPORT NO. 96-I-533
                MARCH 1996
           United States Department of the Interior
                      OFFICE OF THE INSPECTOR GENERAL



MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY: Final Audit Report for Your Information - “American
                 Samoa Legislature, American Samoa Government”
                 (No. 96-I-533)

Attached for your information is a copy of the subject final audit report.

We concluded that the Legislature of American Samoa did not: (1) limit
expenditures to amounts appropriated; (2) prevent the employment of an excess
number of temporary Legislative personnel; (3) adequately account for employee
time and attendance; (4) ensure competitive procurement of and adequate
accounting for goods and services; and (5) adequately control travel authorizations
and expenditures. As a result, for fiscal years 1992 through 1994, Legislative
expenditures exceeded authorized appropriations by a total of $461,737, and
personnel expenditures totaling $918,759 were either improper, unnecessary, or not
supported. In addition, there was no assurance that full value was received for
$239,865 of purchased goods and services; $145,829 of nonexpendable property could
not be accounted for; and there was no assurance that authorized travel expenditures
of $219,600 and $213,525 were proper and necessary, respectively.

The President of the Senate and the Speaker of the House, Legislature of American
Samoa, agreed with our recommendations to ensure that the Legislature authorizes
expenditures within the amounts appropriated and to implement accounting,
procurement and travel procedures.

If you have any questions concerning this matter, please contact me at
(202) 208-5745.



Attachment
                                                                           N-IN-AMS-001-95   i
           United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240




The Honorable LeTuli Toloa
President of the Senate
Legislature of American Samoa
P.O. BOX 485
Pago Pago, American Samoa 96799

Dear President Toloa:

Subject: Final Audit Report on the American Samoa Legislature, American Samoa
          Government (No. 96-I-533)

This final report presents the results of our review of encumbrances and expenditures
incurred by the American Samoa Legislature for the period October 1, 1991, through
December 31, 1994. The objective of our audit was to determine whether the
Legislature expended funds in accordance with applicable laws and regulations.

Our audit disclosed that the Legislature of American Samoa: (1) routinely incurred
expenditures in excess of the amounts appropriated for its annual operating budgets;
(2) employed temporary personnel for terms in excess of those authorized by law;
(3) employed personnel in excess of work load needs; and (4) did not adequately
control or account for the time and attendance of Legislative employees. In
addition, the Legislature did not ensure that: (1) goods and services were procured
competitively; (2) nonexpendable property was adequately accounted for and
controlled; (3) documentation was submitted to support travel expenditures; and (4)
the need for travel was adequately justified.

These conditions occurred because the Legislature: (1) authorized expenditures
despite the lack of available funds; (2) did not have adequate procedures to ensure
that Legislative officials were provided with current and accurate expenditure status
reports; and (3) did not have personnel procedures to ensure that (a) employment
of temporary personnel was limited to the maximum term, (b) new positions were
created only after determinations of need were prepared, and (c) employees
prepared and submitted accurate time and attendance records. Further, the
Legislature did not have written procedures and had not adequately complied with
requirements for either the procurement of or the accounting for nonexpendable
property. Finally, the Legislature did not have adequate written procedures to
ensure that all travelers submitted the required documentation and that the need for
all travel was adequately justified.
As a result, for fiscal years 1992 through 1994, Legislative expenditures exceeded
authorized appropriations by a total of $461,737, and personnel expenditures totaling
$918,759 were either improper, unnecessary, or not supported. In addition, there
was no assurance that full value was received for $239,865 of purchased goods and
services; $145,829 of nonexpendable property could not be accounted for; and there
was no assurance that authorized travel expenditures of $219,600 and $213,525 were
proper and necessary, respectively.

To correct the conditions noted, we recommended that the Legislature of American
Samoa issue written policies and amend current procedures to ensure that the
Legislative Finance Office: (1) reviews and approves the availability of appropriated
funds for every Legislative expenditure; and (2) is the only Legislative department
authorized to submit expenditure requests to the American Samoa Government’s
Treasurer for payment. In addition, the Legislature should: (1) release all temporary
employees who were assigned to the Legislative Reference Bureau for over 1 year;
(2) perform a personnel needs evaluation throughout the Reference Bureau and
reduce the number of personnel to the level needed to meet the Legislature’s needs;
(3) develop and implement written policies and procedures to ensure that
timekeepers and employees accurately record and account for hours and days
worked; and (4) take appropriate disciplinary action against Legislative employees
who do not comply with the established time and attendance policies, particularly
with regard to the recording of hours worked.

We also recommended that the Legislature develop and implement written
procedures to ensure that: (1) all procurements are made in a competitive manner
to the extent required by the applicable law, and that procurement actions are
properly documented; (2) nonexpendable property is recorded in Legislative property
records when received; (3) the Property Management Branch is immediately notified
when nonexpendable property is received; (4) responsibility and accountability for
all nonexpendable property are assigned to each legislator or employee using the
property; (5) travelers file the required travel expense reports, including lodging
receipts and trip accomplishment reports, no later than 30 days following completion
of travel; and (6) the number of travelers for conferences and other fact-finding
missions is justified.

Based on the January 9, 1996, joint response (Appendix 3) to the draft report from
you and the Speaker of the House, Legislature of American Samoa, we consider the
report’s eight recommendations resolved but not implemented. Accordingly, all of
the recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation, and no further response
to this office is required (see Appendix 4).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary
impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.

                                       Sincerely,




                                       Inspector General
                                                                         N-IN-AMS-001-95


           United States Department of the Interior
                     OFFICE OF THE INSPECTOR GENERAL
                             Washington, D.C. 20240




The Honorable Talavou Ale
Speaker of the House
Legislature of American Samoa
P.O. BOX 485
Pago Pago, American Samoa 96799

Dear Speaker Ale:

Subject: Final Audit Report on the American Samoa Legislature, American Samoa
          Government (No. 96-I-533)

This final report presents the results of our review of encumbrances and expenditures
incurred by the American Samoa Legislature for the period October 1, 1991, through
December 31, 1994. The objective of our audit was to determine whether the
Legislature expended funds in accordance with applicable laws and regulations.

Our audit disclosed that the Legislature of American Samoa: (1) routinely incurred
expenditures in excess of the amounts appropriated for its annual operating budgets;
(2) employed temporary personnel for terms in excess of those authorized by law;
(3) employed personnel in excess of work load needs; and (4) did not adequately
control or account for the time and attendance of Legislative employees. In
addition, the Legislature did not ensure that: (1) goods and services were procured
competitively; (2) nonexpendable property was adequately accounted for and
controlled; (3) documentation was submitted to support travel expenditures; and (4)
the need for travel was adequately justified.

These conditions occurred because the Legislature: (1) authorized expenditures
despite the lack of available funds; (2) did not have adequate procedures to ensure
that Legislative officials were provided with current and accurate expenditure status
reports; and (3) did not have personnel procedures to ensure that (a) employment
of temporary personnel was limited to the maximum term, (b) new positions were
created only after determinations of need were prepared, and (c) employees
prepared and submitted accurate time and attendance records. Further, the
Legislature did not have written procedures and had not adequately complied with
requirements for either the procurement of or the accounting for nonexpendable
property. Finally, the Legislature did not have adequate written procedures to
ensure that all travelers submitted the required documentation and that the need for
all travel was adequately justified.
As a result, for fiscal years 1992 through 1994, Legislative expenditures exceeded
authorized appropriations by a total of $461,737, and personnel expenditures totaling
$918,759 were either improper, unnecessary, or not supported. In addition, there
was no assurance that full value was received for $239,865 of purchased goods and
services; $145,829 of nonexpendable property could not be accounted for; and there
was no assurance that authorized travel expenditures of $219,600 and $213,525 were
proper and necessary, respectively.

To correct the conditions noted, we recommended that the Legislature of American
Samoa issue written policies and amend current procedures to ensure that the
Legislative Finance Office: (1) reviews and approves the availability of appropriated
funds for every Legislative expenditure; and (2) is the only Legislative department
authorized to submit expenditure requests to the American Samoa Government’s
Treasurer for payment. In addition, the Legislature should: (1) release all temporary
employees who were assigned to the Legislative Reference Bureau for over 1 year;
(2) perform a personnel needs evaluation throughout the Reference Bureau and
reduce the number of personnel to the level needed to meet the Legislature’s needs;
(3) develop and implement written policies and procedures to ensure that
timekeepers and employees accurately record and account for hours and days
worked; and (4) take appropriate disciplinary action against Legislative employees
who do not comply with the established time and attendance policies, particularly
with regard to the recording of hours worked.

We also recommended that the Legislature develop and implement written
procedures to ensure that: (1) all procurements are made in a competitive manner
to the extent required by the applicable law, and that procurement actions are
properly documented; (2) nonexpendable property is recorded in Legislative property
records when received; (3) the Property Management Branch is immediately notified
when nonexpendable property is received; (4) responsibility and accountability for
all nonexpendable property are assigned to each legislator or employee using the
property; (5) travelers file the required travel expense reports, including lodging
receipts and trip accomplishment reports, no later than 30 days following completion
of travel; and (6) the number of travelers for conferences and other fact-finding
missions is justified.

Based on the January 9, 1996, joint response (Appendix 3) to the draft report from
you and the President of the Senate, Legislature of American Samoa, we consider
the report’s eight recommendations resolved but not implemented. Accordingly, all
of the recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation, and no further response
to this office is required (see Appendix 4).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary
impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.

                                       Sincerely,




                                       Inspector General
                                       CONTENTS


                                                                                            Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1

      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1
      OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2
      PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . ...3

      A.   EXPENDITURE CONTROL . . . . . . . . . . . . . . . . . . . . . . . . . ...3
      B.   PERSONNEL PRACTICES . . . . . . . . . . . . . . . . . . . . . . . . . . ...6
      C.   PROCUREMENT AND PROPERTY MANAGEMENT . . . . . . . 11
      D.   TRAVEL PRACTICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14

APPENDIX

      1. CLASSIFICATION OF MONETARY AMOUNTS . . . .                              . . . . . . . 18
      2. COMPARISON OF WORK LOAD AND PERSONNEL
         AT THE LEGISLATIVE REFERENCE BUREAU . . . .                             . . . . . . . 19
      3. AMERICAN SAMOA LEGISLATURE RESPONSE . . .                               . . . . . . . 20
      4. STATUS OF AUDIT REPORT RECOMMENDATIONS                                  . . . . . . . 22
                              INTRODUCTION

BACKGROUND

The Legislature of American Samoa was established by Article II, Section 1, of the
revised Constitution of American Samoa as a bicameral body. It consists of an 18-
member Senate with 4-year terms and a 21-member House of Representatives with
2-year terms. Senators are elected in accordance with Samoan custom by the council
of the county they are to represent. Representatives are elected by secret ballot in
the 17 designated representative districts (4 districts have 2 representatives each).
Although the Legislature is exempt from portions of the American Samoa Code, the
Legislature is subject to Code requirements for budget, procurement, and property
management purposes and is subject to limited personnel requirements. In addition,
the Executive Branch’s Treasury Department maintains the Legislature’s official
accounting records and processes payments for all of the Legislature’s payroll and
vendor obligations. Although employees in three Legislative departments (the
Senate, the House, and the Legislative Finance Office) are noncareer service
employees and are exempt from the government’s merit system, employees in the
fourth Legislative department, the Legislative Reference Bureau, are required by law
to be career service employees. Finally, Article II of the revised Constitution
prohibits the Legislature from appropriating funds in excess of revenues and requires
that any legislation to expend funds not previously budgeted include revenue
measures to provide the funding.

The Legislature’s annual operating budgets ranged from $2.3 million in fiscal year
1986 to almost $3 million in fiscal year 1994. From October 1, 1992, through
December 31, 1994, the Legislature employed an average of 106 employees,
excluding elected officials. Costs related to personal services of the Legislature
ranged from $1.5 million in fiscal year 1986 to $2.6 million in fiscal year 1994.

Reports by the U.S. General Accounting Office and the American Samoa
Government’s independent public accountants have documented that the
Government’s financial position has been deteriorating since about 1988. The June
1994 Office of Inspector General report entitled “Estimated Financial Condition,
American Samoa Government” (No. 94-1-651) found that the Government’s General
Fund (which provided funds for the Legislature’s operations) had accumulated, as
of March 31, 1993, a $30.1 million cash deficit and a $54 million unreserved fund
deficit.  According to the American Samoa Government’s Treasurer, the
Government’s financial condition continued to deteriorate into fiscal year 1995.

A contributing factor to the ongoing financial crisis was the inability of the
Government’s automated financial management system (also used for the
Legislature’s accounting) to accurately and timely report on the Government’s

                                          1
financial and budgetary status. The June 1994 Office of Inspector General report
stated that since October 1991, American Samoa has been unable to use its
automated financial management system to effectively control the Government’s
financial resources. According to Samoa’s Treasury Department Controller, as of
March 1995, the financial management system still did not accurately account for
encumbrances, which resulted in financial and budgetary reports being understated.
In April 1995, the American Samoa Government and the U.S. Department of the
Interior’s Office of Territorial and International Affairs began the process of
procuring a replacement financial management system.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Legislature expended funds
in accordance with applicable laws and regulations. The scope of the audit included
all encumbrances and expenditures incurred during fiscal year 1994 and other periods
as necessary. However, at the request of the Speaker of the House of
Representatives, we expanded the audit scope to include fiscal years 1992, 1993, and
1995 (through December 31, 1994). Our review was performed from February
through March 1995. However, our audit scope was limited because we were not
provided procurement and accounting records for a major procurement that were
necessary for our review.

The audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessary under the circumstances.

To accomplish the audit objective, we reviewed the Legislature’s budgets, financial
and administrative records and reports, and other supporting documentation
maintained by both the Legislative and Executive Branches of the American Samoa
Government. As part of the audit, we evaluated accounting and management
controls over budgetary appropriations, the accounting for encumbrances and
expenditures, personnel and payroll actions, procurements, property management,
and travel. We found major internal control weaknesses in all these areas. The
internal control weaknesses are discussed in the Findings and Recommendations
section of this report. Our recommendations, if implemented, should improve the
internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office
of Inspector General has issued any audit reports on the American Samoa
Legislature.


                                         2
             FINDINGS AND RECOMMENDATIONS

A. EXPENDITURE CONTROL

Although the American Samoa Code prohibits expenditures in excess of annual
appropriations, the Legislature of American Samoa routinely incurred expenditures
in excess of the amounts appropriated for its annual operating budgets. This
occurred because Legislative officials authorized expenditures despite the lack of
available funds. In addition, the Legislature did not have adequate procedures to
ensure that Legislative officials were provided with current and accurate expenditure
status reports; that is, official accounting reports were incomplete, and financial
information was not provided in a timely manner. As a result, for fiscal years 1992
through 1994 (fiscal year 1995 records were incomplete), the Legislature’s total
expenditures exceeded its authorized appropriations by an aggregate of $461,737.

Appropriations acts passed by the Legislature, as authorized by the American Samoa
Constitution and signed into law by the Governor, establish the legal spending limits
for all branches of the Government. Section 10.0601 of the American Samoa Code
Annotated prohibits expenditures in excess of appropriations and provides that any
officer or employee of the Government who makes or authorizes such an
expenditure is subject to administrative discipline and possible legal prosecution. In
addition, in February 1985, the Legislature assumed responsibility for its own budget
and expenditures. Section 10.0603 of the American Samoa Code Annotated states,
“The Legislature shall have full authority and control the request, approval, and
disbursement of funds in its budget [and] . . . shall be fully responsible for
maintaining proper record keeping and management over the expenditure of funds.”
However, the Legislature’s expenditures exceeded its authorized appropriations
during each fiscal year from 1989 through 1994, as shown in Table 1.

During fiscal years 1992, 1993, and 1994, the Legislature overexpended its
appropriations by $461,737. About 90 percent of the Legislature’s expenditures were
for personnel and travel, and these accounts contained the majority of the overruns,
as shown in Table 2.

The Senate President and the Speaker stated that while some expenditures were
necessary and were incurred regardless of the lack of appropriations, other
expenditures would not have been authorized if these officials had been aware that
they would have resulted in overexpenditures. The President also stated that: (1) the
Legislative Finance Office did not notify him timely of overspending; and (2) the
Treasurer could refuse to pay Legislative obligations if funds were not available, but
the Treasurer still paid them. However, the Treasurer stated that Legislative
obligations are not reviewed by the Executive Branch’s Budget Office and are paid
regardless of budget authority.
                        Table 1. Legislative Budget Versus Expenditures

                                                                                    Underexpenditures/
          Fiscal Year                      Budget                     Expenditures* (Overexpenditures)

            1986                         $2,258,344                   $2,105,730                  $152,614
            1987                          2,509,171                    2,475,149                    34,022
            1988                          3,002,102                    2,857,742                   144,360
            1989                          3,011,000                    3,036,547                   (25,547)
            1990                          2,979,500                    3,054,152                   (74,652)
            1991                          3,031,500                    3,052,679                   (21,179)
            1992                          2,961,000**                  3,101,132***               (140,132)
            1993                          2,961,000**                  2,963,896                    (2,896)
            1994                          2,961,000**                  3,279,709                  (318,709)

*Expenditure amounts were from audited financial statements for fiscal years 1986 through 1992. However, the amounts for
fiscal years 1993 and 1994 are unaudited, and the fiscal year 1994 amount includes outstanding encumbrances of $18,047.
**Budget amounts were limited because of the Government’s financial crisis.
***includes $1,209 expended subsequent to the financial audit but charged to fiscal year 1992.




         Table 2. Legislature Budget Status by Expenditure Category and Department

 By Expenditure Category
  Fiscal                                   Supplies/
  Year         Personnel                    Services               Travel                                Total
   1992 ($200,982)                          $222,758   ($70,257)                  ($91,651)        ($140,132)
   1993    174,748                           (45,157) (105,482)                    (27,005)           (2,896)*
   1994                                      196,924                                25,470
   Total ($362,236)                         $374,525 ($380,840)                   ($93,186)         ($461,737)
 By Department
  Fiscal                                                     Reference            Finance
  Year              Senate                     House           Bureau              Office                 Total
   1992          ($36,379)                  ($83,120) ($33,874)                    $13,241          ($140,132)
   1993           (47,340)                    15,345     (7,552)                    36,651             (2,896)*
   1994
   Total        ($217,595)                 ($157,936) ($85,206)                     ($1,000)        ($461,737)
  *Excludes encumbrances of $21,405.
In 1985, the Legislative Finance Officer established a procedure requiring Finance
Office budgetary clearance for all proposed expenditures. However, the Finance
Office did not have: (1) accurate and complete encumbrance and expenditure
records needed to adequately monitor and identify potential overexpenditures; and
(2) authority to prevent Legislative officials from authorizing overexpenditures.
Financial records were not adequate because of deficiencies in the American Samoa
Government’s automated financial management system and records maintained by
the Finance Office were incomplete.         In addition, although all expenditure
documents are required to be reviewed by the Finance Office, certain expenditure
documents were routed directly to the Chief Procurement Officer or the Department
of the Treasury and not through the Finance Office. For example, Legislative
Finance Office personnel said that since January 1993, the House of Representatives
had not provided proposed expenditures for review by the Finance Office. These
personnel further stated that when the Finance Office notified Legislative officials
that appropriated funds were not available, the officials did not comply with the
notices of overexpenditure in that the expenditures were authorized and sent directly
to the Treasurer for payment.

Recommendations

We recommend that the Legislature of American Samoa:

     1. Issue a written policy and amend current procedures to ensure compliance
with Section 10.0601 of the American Samoa Code Annotated by requiring that the
Legislative Finance Office review and approve the availability of appropriated funds
for every Legislative expenditure, and directing that this is the only office authorized
to submit expenditure requests to the American Samoa Government’s Treasurer for
payment.

    2. Work with the Executive Branch to develop interim procedures to ensure that
accurate expenditure status reports are issued until a new financial management
system is installed.

American Samoa Legislature Response and Office of Inspector General
Reply

The January 9, 1996, joint response (Appendix 3) to the draft report from the
President of the Senate and the Speaker of the House, Legislature of American
Samoa, concurred with both recommendations. Based on the response, we consider
both recommendations resolved but not implemented (see Appendix 4).




                                           5
B. PERSONNEL PRACTICES

The Legislature of American Samoa: (1) employed temporary personnel for terms
in excess of those authorized by law, (2) employed personnel in excess of work load
needs; and (3) did not adequately control or account for the time and attendance of
Legislative employees. Although the American Samoa Code Annotated limits
employment of temporary personnel to a maximum of 1 year, Legislative officials did
not ensure compliance with the Code. Also, the Legislature did not have procedures
to ensure that determinations of need were prepared before new positions were
created and that accurate time and attendance records were prepared and submitted.
As a result, personnel expenditures totaling $918,759 were either improper, not
supported, or may not have been necessary.

Personnel Expenditures

The Legislature employed temporary personnel for periods in excess of the 1 year
permitted by law and, in our opinion, employed more personnel than were necessary
to accomplish Legislative tasks. These conditions occurred because: (1) Legislative
officials said that they were not aware that temporary personnel were limited to 1-
year terms; and (2) the Legislature employed personnel without determining whether
               1
the personnel were necessary for Legislative operations. As a result, we believe
that personnel expenditures totaling at least $699,151 were improper or unnecessary.

        Temporary Employees. Sections 7.0207 and 7.0203/7.0204 of the American
Samoa Code, respectively, require that: (1) temporary employees be limited to terms
of not more than 1 year; and (2) noncontract employees of the Legislative Reference
Bureau be hired through the merit selection process. However, during the audit
period, the Legislature paid $699,151 to employ 23 temporary employees for periods
of more than 1 year. In our opinion, if the positions held by the temporary
employees were needed for Legislative operations, the positions should have been
designated career positions and filled with employees selected through the merit
selection process.

       Excess Personnel. Based on our analysis of Legislative Reference Bureau
work loads for fiscal years 1993 and 1994, we found that the Legislature employed
an average of 23 personnel more than were necessary to perform Legislative tasks.
Although we did not identify any written Legislative policies or procedures requiring
the preparation of a determination of need or other analysis to justify the creation
of new staff positions, in our opinion such policies/procedures are needed. As a



1
A November 13, 1991, letter from the Legislature Administrator to the Director of Manpower
Resources referred to noncareer or temporary employees as political appointees.

                                            6
                                                                                   2
result of the overstaffing, the Legislature expended at least $600,3102 to pay salaries
of personnel who were not needed for Legislative operations.

From October 1, 1992, through December 31, 1994, the Legislature employed an
average of 106 personnel to support the 39 elected officials--an increase of 42
personnel (66 percent) over the average of 64 personnel employed during fiscal years
1987 and 1988. A significant portion of the increase in personnel occurred at the
                                3
Legislative Reference Bureau. The fiscal year 1991 Legislative budget included 37
new Reference Bureau positions, or 22 more positions than were authorized in the
fiscal year 1990 budget. To determine the need for the increase, we reviewed the
staffing of the Legislative Reference Bureau relative to the best available work load
measure. According to the Director of the Legislative Reference Bureau, the
number of proposed bills submitted by legislators for research, drafting, and
translation (into Samoan) is the “best single measure” of the Reference Bureau’s
work load. In addition, the Director stated that in general, the complexity of draft
legislation had not changed between 1986 and 1995.

Based on our analysis of the Reference Bureau’s work load as measured by the total
number of proposed bills, we believe that the Legislature should not have increased
the number of personnel in the Reference Bureau. During the period from the 21st
Legislature (1989/1990) through the 23rd Legislature (1993/1994), the Reference
Bureau’s volume of work declined by 19.3 percent (Appendix 2), while the Bureau’s
average budgeted staff increased by 23 positions. Consequently, the Bureau’s
average personnel costs per draft bill increased by 152 percent (from $2,250 to
$5,677). As a result, we estimated that the 23rd Legislature incurred unnecessary
personnel costs of at least $600,310 (Appendix 2).

The Speaker stated that all employees at the Legislative Reference Bureau were
necessary. However, the Senate President stated that a review of staffing levels may
be appropriate. In addition, officials at the Reference Bureau stated that as of 1995,
the Reference Bureau had excess staff. From fiscal years 1990 to 1991, the
Legislature increased budgeted personnel positions at the Reference Bureau by 37,
which included: (1) transferring 24 personnel from the Senate and House payrolls
to the Reference Bureau; and (2) hiring 13 new employees. According to Reference
Bureau officials, the transfers of personnel were intended to improve personnel
administration, but the officials could not justify the hiring of the new employees.


2
 This amount is not included in “Funds To Be Put To Better Use” in Appendix 1 because this amount
is included in the $699,151 relating to temporary employees.
3
Responsibilities of the Legislative Reference Bureau include: (1) drafting all bills, resolutions, and
amendments; (2) translating documents into Samoan; (3) acting as staff for study committees; (4)
conducting research requested by Legislative members; (5) codifying all American Samoan laws; and
(6) maintaining a reference library.

                                                  7
However, by fiscal year 1995, the Senate and House personnel budget increased by
24 positions, which effectively reversed the initial transfer of personnel to the
Reference Bureau. We believe that the 37 additional Reference Bureau personnel
were not needed. Another indicator of excess personnel was that as of March 1995,
more than 4 years after these positions were originally authorized, 33 positions still
did not have position descriptions and 14 employees still did not have desks or work
areas.

Time and Attendance

Legislative payroll records did not adequately support payments made to Legislative
employees. This condition occurred because the Legislature did not have written
payroll policies and procedures and the Executive Branch did not have written
payroll procedures that the Legislature could use as a guide. Both the President and
the Speaker stated that they were unaware of the magnitude of the timekeeping
problems but that they were aware that the Legislature did not have written
timekeeping and payroll procedures. In addition, the President and the Speaker
stated that employees who do not report to work are disciplined. As a result of
inadequate time and attendance controls, during fiscal years 1993, 1994, and 1995,
Legislature employees: (1) were paid at least $219,608 in salaries without adequate
support; and (2) took leave without adequate documentation.

We reviewed both the Legislature’s overall payroll system and the pay periods ending
July 31, 1993, April 9, 1994, and November 19, 1994. We determined that the
Legislature’s attendance recordkeeping system did not ensure that all Legislative
personnel were always either at work or on approved leave and that time sheets and
leave forms adequately supported amounts paid employees.

       Attendance. On March 20, 1995, we assisted Legislative personnel in
distributing payroll checks (for the pay period ending March 11, 1995) to Legislative
support employees, and except for one employee in travel status off-island, all the
pay checks were issued. However, during a 2:30 p.m. site observation on March 8,
1995, we were able to account for only 46 of the 109 Legislative support employees
                                                                           4
based on our review of leave documents and personnel at the work site. Further,
on March 27, 1995, also at 2:30 p.m., we could account for only 37 Legislative
support employees.

       Time Sheets. The four Legislative departments each used different forms to
record hours worked; however, the information gathered by the departments was not
complete. Our review of the time sheet support for entries on employee time cards


4
This determination was based on a review of employees’ leave documents and on statements made
by Legislative officials that the Legislature had no off-site work locations.

                                              8
for the three pay periods disclosed that 316 of 325 time cards had deficiencies
affecting the validity of the time cards. Specifically, we found cases in which: (1)
there was no evidence that a time sheet supporting the time card had been prepared;
(2) entries on the time cards did not agree with the related time sheets; (3)
incomplete time sheets were used to prepare the time cards; and (4) official time
sheets were not signed by a supervisor. As a result of these deficiencies, we
questioned whether these time cards could be used as bases for paying employees.
The deficiencies we found by Legislative department are as follows:




*Amounts are funds paid to employees based on inadequate payroll records. The absence of a supervisor’s signature on an
otherwise corrrect time sheet was not considered sufficient to question the payment to those employees.

In addition to the deficiencies disclosed for the three pay periods tested, we
determined that the timekeeper at the Legislative Reference Bureau did not require
staff to complete time sheets during the portion of fiscal year 1995 that we reviewed.
Therefore, we questioned payroll payments to Reference Bureau employees for all
pay periods between October 1 and December 31, 1994, a total of $130,704
(excluding $22,795 already included in the $88,904 above from the pay period ending
November 19, 1994).

       Leave Forms. The 325 time cards prepared for the three pay periods included
88 instances of sick or annual leave taken. We identified discrepancies in the leave
documentation in 70 of the 88 instances. The identified discrepancies consisted of:
(1) leave forms not on file; (2) leave forms not signed by employee and/or
supervisor; and (3) leave form hours and/or dates not in agreement with time sheets.

Recommendations

We recommend that the Legislature of American Samoa:

      1. Perform a personnel needs evaluation throughout the Legislature
Reference Bureau and reduce the number of personnel to the level needed to meet
the Legislature’s needs. Also, all temporary employees assigned to the Reference
Bureau for over 1 year should be released. Positions determined to be necessary for


                                                           9
the efficient operation of the Reference Bureau should be filled through the merit
selection process with qualified career personnel.

      2. Develop and implement written policies and procedures to ensure that
timekeepers and employees accurately record and account for hours and days
worked.

        3. Take appropriate disciplinary action against Legislative employees who do
not comply with the established time and attendance policies, particularly with regard
to the recording of hours worked.

American Samoa Legislature Response and Office of Inspector General
Reply

The January 9, 1996, joint response (Appendix 3) to the draft report from the
President of the Senate and the Speaker of the House, Legislature of American
Samoa, concurred with the three recommendations. Based on the response, we
consider all three recommendations resolved but not implemented (see Appendix 4).




                                          10
C. PROCUREMENT AND PROPERTY MANAGEMENT

The Legislature of American Samoa did not ensure that goods and services were
procured competitively and that nonexpendable property was adequately accounted
for and controlled. Although the American Samoa Code Annotated and the
American Samoa Government Manual provide overall procurement and property
management requirements, the Legislature did not have formal written procedures
and had not adequately complied with the overall requirements for either
procurement of or accounting for nonexpendable property. As a result, the
Legislature could not ensure that full value was received for $239,865 of goods and
services and could not account for $145,829 of nonexpendable property.

Procurement

The Legislature did not procure, on a competitive basis, goods and services costing
over $10,000 and did not document that competition was used to procure goods and
services for amounts under $10,001. Although the Chief Procurement Officer had
the authority and responsibility to procure the goods and services for the Legislature,
we noted only one instance where Procurement Office officials selected the vendor.
According to a Procurement Office official, Legislative selections of vendors were
generally not questioned because Executive Branch personnel have “traditionally
acceded” to Legislative authority. Legislative officials stated that: (1) they had
obtained verbal price quotations for some procurements but did not keep any
records; and (2) they did not need to contact multiple vendors for those purchases
in which there was only a single vendor that carried the necessary items. As a result,
the Government could not ensure that full value was received for over $239,865 of
goods and services.

The American Samoa Procurement Act of 1983 (Title 12, Chapter 2, of the
American Samoa Code Annotated) and the Procurement Rules require all
procurements of construction, goods, and services to be made or supervised by the
American Samoa Chief Procurement Officer. In addition, the Procurement Rules
state that the Government’s policy is to conduct all procurements in a manner that
provides maximum open and free competition and that all Government contracts in
excess of $10,000 “shall be executed by sealed competitive bidding” except under a
declared emergency or formal negotiation. Finally, the Procurement Act requires
the Chief Procurement Officer to issue procurement procedures for small purchases
(less than $10,001). However, 12 years after passage of the Procurement Act, the
Chief Procurement Officer had not issued small purchase procedures.

From October 1, 1992, through December 31, 1994, the Legislature requested, and
the Chief Procurement Officer issued, 108 contracts (including purchase orders),
totaling $430,504. We reviewed 32 (totaling $306,542) of the 108 procurements and


                                          11
determined that the Legislature: (1) had not complied with formal sealed competitive
bidding requirements in 7 of the 8 ($154,912) procurements over $10,000; and (2)
had not documented that the remaining 24 ($84,953) procurements under $10,001
were made competitively.

For example, in October 1994 the Legislature requested, and in November 1994 the
Governor approved, an emergency exemption from competitive bidding requirements
to allow the Legislature (in lieu of the Chief Procurement Officer) to issue a sole
source construction contract for $78,000 to repair the roof of the main Legislative
building. The Legislature’s and the Governor’s written justifications for the
emergency contract stated that the roof needed to be repaired by January 1995 to
avoid “threats” to the safety of building occupants and to limit further damage to the
building contents. In our opinion, this contract should have been competitively bid
because the Legislature had known since April 1991 of the need for the repairs. The
contract completion date was extended to June 30, 1995, because main support
beams had to be replaced and the beams had to be ordered from off-island. The
contract date was subsequently extended to August 31, 1995, and an official of the
Legislative Finance Office said that he believed another extension would be needed.

Property Management

The Legislature could not account for nonexpendable property valued at $145,829.
This condition occurred because the Legislature did not have written procedures to
ensure that all departments: (1) maintained records of nonexpendable property from
the time of receipt to the time of disposal; and (2) delegated responsibility to
account for nonexpendable property to the employee using the property. Both the
President and the Speaker stated that the Legislature needed to establish
property management procedures to improve its control over nonexpendable
property.

Section 12.0208 of the American Samoa Code Annotated designates the Chief
Procurement Officer as the official with general control over all Government
property. Section 300 of the American Samoa Government Manual requires all
property acquired by the Government to be charged to an “accountable officer” and
the head of each department to be responsible for ensuring that public property
under the department head’s custody and control is protected against damage or loss.

During March 1995, the Property Management Branch, under the Chief Procurement
Officer, performed a physical inventory of the Legislature’s nonexpendable property,
the first inventory of the Legislature’s nonexpendable property in over 2 years. The
Government’s inventory personnel identified 16 items (such as sofas and a computer
monitor) that were not on the official property records and could not locate 218
items, valued at $141,029, that were listed on the property records. Legislative
officials stated that they would need to review the listing of missing property before
they could comment on the missing property.

                                          12
In addition, as part of our review, we performed limited testing of 10 Legislative
procurements, totaling $74,351, made during the period audited. We located
property relating to nine of these procurements. However, we could not locate the
property or records relating to the remaining procurement: 24 water filters ordered
at a total cost of $4,800 in November 1992 by the Speaker of the 22nd Legislature
for the elected Representatives. In March 1995, Legislative officials could not locate
and said that they did not recall having received the filters.

Recommendations

We recommend that the Legislature of American Samoa:

     1. Develop and implement written procedures to ensure that all procurements
are made in a competitive manner to the extent required by the applicable law and
that procurement actions are properly documented.

    2. Develop and implement written procedures to ensure that nonexpendable
property is recorded in Legislative property records when received, the Property
Management Branch is immediately notified when nonexpendable property is
received, and responsibility and accountability for all nonexpendable property are
assigned to each legislator or employee using the property.

American Samoa Legislature Response and Office of Inspector General
Reply

The January 9, 1996, joint response (Appendix 3) to the draft report from the
President of the Senate and the Speaker of the House, Legislature of American
Samoa, concurred with both recommendations. Based on the response, we consider
both recommendations resolved but not implemented (see Appendix 4).




                                          13
D. TRAVEL PRACTICES

The Legislature of American Samoa did not ensure that documentation was
submitted to support travel expenditures and that the need for travel was adequately
justified. Although the Legislature had a travel policy that required the submission
of expense reports for completed travel, the Legislature did not have adequate
written procedures to ensure that all travelers submitted the required documentation
and that the need for all travel was adequately justified. As a result, the Legislature
had no assurance that authorized travel expenditures of $219,600 and $213,525 were
proper and necessary, respectively.

Between October 1, 1992, and December 31, 1994, according to records maintained
by the Legislative Finance Office and the Department of the Treasury, the
Legislature issued 386 travel authorizations, totaling $746,486, for travel outside
                                     5
American Samoa. We reviewed 385 travel authorizations to determine whether
expense reports had been filed and whether, considering the Government’s financial
crisis, the Legislature could have met the travel objectives while still reducing or
eliminating some travel costs.

Travel Expense Reports

Legislative travelers did not submit the required expense reports to account for the
Government travel funds used to pay the travelers’ transportation, conference, and
other fees and per diem. This condition occurred because Legislative officials did
not enforce the Legislature’s requirement to file travel expense reports. Without the
timely filing of expense reports, including lodging receipts and trip reports, the
Legislature had no assurance that the $219,600 authorized for advances to Legislative
travelers or for payment to travel agents was properly expended or that the travel
was completed.

The Legislature’s Air Travel Policy, issued on July 17, 1985, requires that each
traveler file a travel expense report with a copy of the used airline ticket at the
completion of travel. However, while the travel policy does not specify any time
limits for submitting the expense reports, the travel authorization documents, signed
by both the Legislative travelers and the authorizing officials, state that the traveler
agrees to file a travel expense report within 30 days of completion of travel or, if the
report is not filed, to authorize the Treasurer to deduct the travel cost from the
traveler’s salary.

Executive Branch travel policy also requires travelers to file, within 30 days after
completion of travel, the travel expense report and a report showing the


5
    The Government was unable to locate one travel authorization totaling $1,750.

                                                  14
accomplishments or information received during the trip. Finance Office and
Treasury officials said that their efforts to “encourage” the filing of the travel reports
were ineffective and that the penalties for not filing the reports were not enforced.

As of March 9, 1995, Treasury Department Travel Section records indicated that for
travel authorizations issued through December 31, 1994, travelers’ expense reports
had not been filed for 107 (of the 386) travel authorizations, totaling $219,600, as
follows:

              Travel Authorizations Without Expense Reports as of March 9, 1995
      Fiscal                                                     Finance          Reference            Total              Total
      Year                  Senate              House             Office           Bureau             Amount*             TAs**
      1993                  $12,975            $21,703            $1,284            $16,980            $52,942               26
      1994                   63,272             22,000             4,972             25,899            116,143               56
      1995***                23,314              3,506             7,395             16,300             50,515
      Total                 $99,561            $47,209           $13,651            $59,179           $219,600             107
 -
  Because of incomplete travel records, we could not determine the final costs associated with each travel authorization. Therefore,
 we used the total cost shown on each travel authorization as the best available estimate of the actual expenses incurred by
 the traveler.




Travel Authorizations

Of the 386 travel authorizations approved by the Legislature from October 1, 1992,
through December 31, 1994, 110 may have not been necessary because: (1) multiple
travelers were sent to the same conference, seminar, or meeting when fewer travelers
may have been appropriate in light of the financial crisis ($209,649); and (2)
additional per diem or airfare expenses were authorized without, in our opinion,
adequate justification ($3,876). Both the President and the Speaker stated that all
the Legislature’s travel was necessary. The Speaker also stated that travel could not
be reduced regardless of the Government’s financial crisis. However, since the
American Samoa Government was in a multiple-year fiscal crisis, in our opinion the
110 travel authorizations representing $213,525 may not have been the best use of
limited financial resources. For example:

       - During the audit period, Legislative officials authorized $169,429 for 65
travelers to attend 12 different legislative conferences as follows:




                                                            15
                                          Legislative Conferences

                                                         Number                      Number of
 Conference                Location                      of Days*   Month and Year   Travelers
 NCSL                      Los Angeles                   7          October 1992         2
 NCSL                      San Francisco                 5-10       November 1992        4
 NCSL                      Los Angeles                   5-12       December 1992         9
 NCSL                      Washington,D.C.               5-9        January 1993         5
 NCSL                      Los Angeles                   3-7        April 1993           2
 NCSL                      San Diego                     8-13       July 1993            15
 WLC                       Las Vegas                     10-14      September 1993       9
 NCSL                      Los Angeles                   10-14      November 1993        2
 CSG                       Phoenix                       12         December 1993        5
 CSG &                     Phoenix
 Leadership                 and
  Conference                Washington,D.C.              16         December 1993         3
 CSG                       Austin                        10         November 1994         2
 WLC                       Phoenix                       10-12      November 1994         7

 *Number of authorized days varied by traveler.

 NCSL: National Conference of State Legislatures
 WLC: Western Legislative Conference.
 CSG: Council of State Governments



By limiting attendance to each of the above conferences to one or two officials who
could have reported the results to other concerned officials, we estimated that, if the
Legislature had reduced the number of travelers from 65 to 17, $128,881 could have
been saved.

       - As noted in the listing of Legislative conferences, the number of days
authorized for per diem varied by as much as 7 days for the same trip. In addition,
none of the travel files we reviewed contained literature describing the purposes and
dates of the conferences. For example, Legislative officials authorized per diem for
periods varying from 5 to 12 days for travelers to the December 1992 National
Conference of State Legislatures. The per diem periods authorized for different
travelers included: (1) December 11-22; (2) December 14-23; (3) December 19-23;
(4) December 19-27; (5) December 21-27; and (6) December 30, 1992, to January
3, 1993. Unless the Conference was held from December 12, 1992, to January 2,
1993, we believe that some of the days authorized for per diem may not have been
related to the Conference.




                                                    16
        - In October and November 1994, Legislative officials traveled to Western
                                                                     6
Samoa, Fiji, and Tahiti to investigate a disease affecting the taro plant. First, in
October 1994, five Representatives were authorized 7 days and $3,475 to study the
disease in Western Samoa; then in November, the Speaker and another
Representative were authorized 5 days and $2,062 in Western Samoa to perform a
followup study on the disease.          Finally, in late November 1994, another
Representative was authorized 10 days and $1,731 to visit Fiji and Tahiti to gather
information on the disease. In our opinion, fewer travelers would have been
appropriate in light of the Government’s financial crisis. For example, if Legislative
officials had authorized only two travelers to Western Samoa, $5,042 could have been
saved.

       - In October 1993, July 1994, and December 1994, the Legislature authorized
travel totaling $8,910 for four elected officials to observe the operations of the
Hawaii State Legislature and then the operations of the city councils of Los Angeles
and Carson, California. Considering the financial crisis, if the Legislature had
limited the authorized travel to Hawaii only, $3,876 could have been saved.

Recommendation

We recommend that the Legislature of American Samoa develop and implement
written travel policies and procedures that require travelers to file travel expense
reports, including lodging receipts and trip accomplishment reports, no later than 30
days following completion of travel and that the number of travelers for conferences
and other fact-finding missions is adequately justified.

American Samoa Legislature Response and Office of Inspector General
Reply

The January 9, 1996, joint response (Appendix 3) to the draft report from the
President of the Senate and the Speaker of the House, Legislature of American
Samoa, concurred with the recommendation. Based on the response, we consider
the recommendation resolved but not implemented (see Appendix 4).




6
    This plant is a starchy tropical plant cultivated for its edible rootstock.

                                                       17
                                                     APPENDIX 1


             CLASSIFICATION OF MONETARY AMOUNTS


                                             Funds To Be
                                               Put To
               Finding Areas                 Better Use*
Personnel Practices
 Personnel Expenditures                        $699,151
 Time and Attendance                            219,608

Procurement and Property Management
 Procurement                                    239,865
 Property Management                            145,829

Travel Practices
 Travel Expense Reports                         219,600
 Travel Authorizations                           183,255**

  Total                                       $1,707,308




*Amounts represent local funds.
**Net of $30,270 to avoid double counting.
                                                                                      APPENDIX 2


           COMPARISON OF WORK LOAD AND PERSONNEL
               AT THE LEGISLATIVE REFERENCE BUREAU

 Legislature                                            21st                22nd                   23rd

 Total draft bill requests                               833                  766                   563

 Less: Adjustments*

 Adjusted total of draft
 requests

Estimate of decrease in work load:
 (290 - 234) divided by 290 = 19.3 percent decrease in draft requests

 Average personnel budgeted
 per fiscal year                                        15.5                49.5                  38.5

 Personnel budget for 2 fiscal
  years                                            $652,500             $1,460,900            $1,328,500

 Amount of budget per draft
 request                                             $2,250               $4,509                 $5,677

Estimate of increase in cost per request:
 ($5,677 - $2,250) divided by $2,250 per request = 152 percent increase

Estimate of unnecessary personnel costs:**
 $1,328,500 less [$652,500 + ($652,500 x 11.6 percent)] = $600,310


*The total draft bill requests were reduced by the number of requests for draft appropriation bills,
draft resolutions, and draft commendations. The number of these types of requests varied
significantly during this period, and Legislative personnel said that including these requests in a total
might bias any comparison.

**Despite the decrease in comparative work load from the 21st through the 23rd Legislatures, we did
not attempt to estimate any additional reduction but instead based our estimate of the necessary staff
level at the same level as that used by the 21st Legislature. In addition, we found that Reference
Bureau salaries increased by a total of 11.6 percent from 1989 to 1994.




                                                   19
                                                                                   APPENDIX 3
                                                                                   Page 1 of 2




                           LEGISLATURE OF AMERICAN SAMOA

                                       January 09, 1996

LETULI TOLOA
PRESIDENT OF THE SENATE                                            SPEAKER OF THE HOUSE



Mr. Peter Scharwark, Jr,
Regional Audit Supervisor
United States Department of the Interior
Office of Inspector General
1550 Wilson Boulevard Suite 401
Arlington, VA 22209

Dear Mr. Scharwark, Jr.:

Thank you for sending us a copy of your Draft Audit Report on the American Samoa
Legislature,1995.

Thank you also for inviting us to comment on your findings and recommendations. Following
are the brief comments we can make at this time on the topics you indicated:

       1.     Finances and Expenditures.

              Thc Legislative Finance Office has been instructed and has begun to develop
              written policies and procedures to ensure that the Fono expend funds according
              to limitations and allowances of the approved budget. Such policies will be
              followed by all officers in the Fono who has responsibilities in this area.

              As to the dollar figures cited in the Report, please understand that because of the
              overall condition of financial repotting of ASG, wc arc not in a position to accept
              the figurcs without question. You saw that yourselves and you alluded to the
              unreliability of the ASG financial reports in your report.

       2.     Personnel.

              Subsequent to the receipt of your draft rcport, we have worked on developing an
              Organization Chart that is up tO date and correctly reflects people and functions.
              We have sought and received the assistance of the Department of Manpower
              Resources who will review our plans and conduct the usual work that leads to
              reclassification. Contract employees who can be released will be released.



                       P.O BOX 485 PAGO PAGO, AMERICAN SAMOA 96799

                                                  20
Mr. Peter J. Scharwark, Jr.                                                               APPENDIX 3
January 09, 1996                                                                          Page 2 of 2
Page 2


                  Others will be placed in the regular career service so as to conform with
                  applicable law.

                  Your comments regarding excess personnel is noted. As you know, only the
                  President and the Speaker has authority to hire employees for the Fono. Both
                  have agreed to a moratorium on any new hiring until and unless there is an open
                  position, according to the new chart, and even then, only if the new hiring is
                  necessary.

                  We are tightening supervision so as to avoid the problem noted by you about
                  employee absence from their positions, late, and early departures.

         3.       Travel. Reason and Reports.

                  Beginning this new year, all those who travel on Fono business will be required
                  to file expense reports within 30 days after travel, This will be strictly enforced.

        4.

                  Your comments regarding care and accounting for Fono properties is well
                  received. Procedures for recording and accounting has been very lax.

        5.        Procurement,

                  ‘l-he Legislative Finance Office has been instructed to formulated policies and
                  written procedures with regard to procurement of equipment and supplies. As
                  you know, the only major item in this regard has been the Fono Roofing job, and
                  the arrangements used there was specially approved for that one project because
                  of the emergent y nature.

All of the above are expected to be completed within the next few weeks. The work on the
reorganization of the LRB might take a little longer as Manpower Resources need to review all
position descriptions and corresponding salaries, and conduct audits of positions. In any case,
you can be sure that by the end of the current fiscal year, all of the recommendationsby you and
the response by us will have been executed.

Again, thanks for your cooperation and for bringing to our attention those areas where wc need
to tighten up and improve our operations.

Sincerely,




President of the Scnate                                 Speaker of the House of Rcpresentatives



                                                      21
                                                         APPENDIX 4


     STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                Action Required
     A.1 and A.2;        Resolved; not No further response to the Office of
     B.1, B.2, and       implemented. Inspector General is required. The
     B.3; C.1 and                      recommendations will be referred to
     C.2; and D.1                      the Assistant Secretary - Policy,
                                       Management and Budget for tracking
                                       of implementation.




                                22
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1550 Wilson Boulevard                                  l-800-424-5081 or
Suite 402                                              (703) 235-9399
Arlington, Virginia 22210

                                                       TDD forbearing impaired
                                                       (703) 235-9403 or
                                                       1-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7279 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
